Audit Report No. D-2011-RAM-007           December 7, 2010




          Recovery Act Hospital Alteration Project
             at Naval Air Station Jacksonville
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AE                            Architect and Engineering
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
NAVFAC                        Naval Facilities and Engineering Command
NH                            Naval Hospital
MILCON                        Military Construction
OMB                           Office of Management and Budget
PCAS                          Post-construction Award Services
QMAD                          Quantitative Methods and Analysis Division
RLF                           Rogers Lovelock & Fritz, Incorporated
SE                            Southeast
SF                            Square Feet
SOW                           Statement of Work
TMA                           TRICARE Management Activity
                                   INSPECTOR GENERAL 

                                   DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DR IVE 

                                ARLINGTON , VIRG INIA 22202-4704 




                                                                        December 7, 20 I 0



MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (HEALTH
                 AFFAIRS)
              NAVAL INSPECTOR GENERAL
              COMMANDING OFFICER, NAVAL FACILITIES
                 ENGINEERING COMMAND, SOUHI EAST

SUBJECT: Recovery Act Hospital Alteration Project at Naval Air Station Jacksonville
          (Audit Report No. D-2011-RAM-007)

We are providing this report for your information and use. We performed this audit in
response ·to the requirements of Public law 111-5, "The American Recovery and
Reinvestment Act of 2009," February 17, 2009. Although planning and project execution
for the Recovery Act hospital alteration project was initially inadequate, officials at TMA
and NAVF AC SE took corrective actions, consequently, the DoD has reasonable
assurance that Recovery Act funds were used for the purposes intended.

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Michael Joseph at (757) 872-4698.




                                            f!£~
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
 Audit Report No. D-2011-RAM-007 (Project No. D2009-D000LF-0245.004)              December 7, 2010


                 Results in Brief: Recovery Act Hospital
                 Alteration at Naval Air Station Jacksonville
                                                            not clearly define requirements attributable to the
What We Did                                                 Recovery Act hospital alteration project or
Our overall objective was to evaluate DoD’s                 separate those requirements from those for non-
implementation of the “American Recovery                    Recovery Act projects. As a result, TMA initially
and Reinvestment Act of 2009,”                              lacked reasonable assurance that Recovery Act
February 17, 2009, (Recovery Act).                          funds were used for the purposes intended.
Specifically, we reviewed the planning,
funding, initial execution, and tracking and                TMA personnel distributed planning and design
reporting of the Recovery Act hospital                      and construction funds to NAVFAC for the
alteration project (a 50,752 square feet                    Recovery Act hospital alteration project in a
alteration costing $27.2 million) at Naval Air              timely manner, and the funding authorization
Station Jacksonville to determine whether the               documents properly identified a Recovery Act
efforts of TRICARE Management Activity                      designation. Additionally, contracting personnel
(TMA) and Naval Facilities Engineering                      at NAVFAC SE included the Federal Acquisition
Command (NAVFAC) Southeast (SE)                             Regulation (FAR) clauses required by the
complied with the Act’s requirements and                    Recovery Act in the AE design contract. Finally,
subsequent related guidance.                                the contractor, Rogers Lovelock & Fritz,
                                                            Incorporated, reported the recipient information
                                                            required by the Recovery Act.
What We Found
Although planning and project execution for the             What We Recommend
Recovery Act hospital alteration project was
initially inadequate, officials at TMA and                  Personnel at TMA and NAVFAC SE corrected all
NAVFAC SE took corrective actions,                          deficiencies identified during the course of our
consequently, the DoD has reasonable assurance              review. Therefore, this report makes no
that Recovery Act funds were used for the                   recommendations.
purposes intended.
                                                            Management Comments and
Initially, TMA personnel did not adequately                 Our Response
support $7.4 million in costs and 17,752 square             We considered management comments on a
feet of the 50,752 needed for the Recovery Act              discussion draft of this report when preparing the
hospital alteration project. This occurred because          final report. The Director, TMA and Commander,
TMA personnel did not update project                        NAVFAC SE agreed with our results and
documentation to support the need for additional            conclusions in the discussion draft report, and
cost and the need for additional square footage,            corrective action is complete. We do not require
and did not break out the Recovery Act project              additional comments.
requirements separately from those for
previously-planned MILCON projects. Although
contracting personnel at NAVFAC SE announced
and reported contracting actions on the
appropriate Web sites, architecture and
engineering-related contract actions initially failed
to ensure the transparency of Recovery Act funds.
This occurred because contracting personnel did
                                                        i
Table of Contents

Introduction                                                                     1


      Objective                                                                  1

      Background                                                                 1

      Review of Internal Controls                                                2


Audit Results:                                                                   4

      Planning: Initially, Project Not Adequately Planned or Supported, But

        Corrective Action Taken                                                  4

      Funding: TRICARE Management Activity Properly Distributed Recovery

        Act Funds                                                                6

      Project Execution: Transparency of Recovery Act Funding Initially

        Inadequate, But Corrective Action Taken                                  7

      Tracking and Reporting: Recipient Reported Information Required by the

        Recovery Act                                                             9

      Conclusion                                                                10 


Appendix

     Scope and Methodology                                                      11 

            Use of Computer-Processed Data                                      12 

            Use of Technical Assistance                                         12 

            Prior Coverage                                                      12 

Introduction
Objective
Our overall objective was to evaluate DoD’s implementation of Public Law 111-5,
“American Recovery and Reinvestment Act of 2009,” February 17, 2009. Specifically,
we reviewed the planning, funding, initial execution, and tracking and reporting of the
Recovery Act hospital alteration project at Naval Air Station Jacksonville to determine
whether the efforts of TRICARE Management Activity (TMA) and Naval Facilities
Engineering Command (NAVFAC) South East (SE) complied with the Act’s
requirements, Office of Management and Budget (OMB) Memorandum M-09-10, “Initial
Implementing Guidance for the American Recovery and Reinvestment Act of 2009,”
February 18, 2009, and subsequent related guidance.

The Recovery Act and OMB guidance require projects to be monitored and reviewed.
We grouped these requirements into the following four phases: (1) planning, (2) funding,
(3) execution, and (4) tracking and reporting. See the appendix for a discussion of our
scope and methodology.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

DoD received approximately $7.16 billion 1 in Recovery Act funds for projects that
support the Act’s purposes. In March 2009, DoD released expenditure plans for the
Recovery Act, which listed DoD projects that will receive Recovery Act funds. The
Assistant Secretary of Defense (Health Affairs) received $1.33 billion of Recovery Act
funds for Defense-wide hospital construction. TMA allocated $118.6 million to
Project 74688, “Planning and Design,” which funded the planning and design efforts for
three Recovery Act hospital projects. Of the $118.6 million, TMA allocated
$1.09 million to Project 65199, the Recovery Act hospital alteration project, to support its
Architect and Engineering (AE) efforts and planned to allocate the remaining funds to
support the AE efforts for Project 74650 “Hospital Replacement Phase I, “Fort Hood,
Texas; and Project 71653 “Hospital Replacement,” Camp Pendleton, California.


1
 DoD originally received $7.42 billion; however, Public Law 111-226, Title III, “Rescissions,” rescinded
$260.5 million on August 10, 2010. The $7.16 billion does not include $4.6 billion for U.S. Army Corps of
Engineers civil works projects.


                                                   1

We are also reviewing those Recovery Act-funded projects and will address them in
upcoming reports. As part of those reviews, we will continue to monitor the use of the
$118.6 million in “planning and design” funds allocated from Project 74688.
Additionally, TMA allocated $27.2 million in construction funds to Project 65199,
“Hospital Alteration,” at Naval Air Station Jacksonville.

For the purposes of this audit, we consider AE efforts using funds from Project 74688,
“Planning and Design,” to support the planning efforts for Project 65199, “Hospital
Alteration,” at Naval Air Station Jacksonville; therefore, we consider the projects to be
interrelated. As a result, we will report on both projects together, referring to them as the
Recovery Act hospital alteration project. See additional information in the appendix.

Naval Hospital Jacksonville
Naval Air Station Jacksonville is a master air and industrial base that provides
operational and logistical support for U.S. operating and allied forces worldwide, and for
more than 100 tenant activities and other commands. As a support function to the Naval
Air Station, Naval Hospital (NH) Jacksonville provides a wide range of general and
specialized healthcare services treating over 400,000 outpatients and admitting about
10,000 inpatients yearly.

NH Jacksonville is an eight-story facility constructed in 1967. A planned FY 2005
addition and alteration project was to provide modern operating rooms, contemporary
obstetrical suites, and code-compliant elevators. In 2005, due to significant cost
escalations, TMA personnel split the original addition and renovation project into two
phases; a FY 2005 military construction (MILCON) addition project and a 33,000 square
feet (SF) FY 2007 renovation project. TMA used funds from the renovation project to
address overruns for the FY 2005 MILCON addition project, thereby leaving the 33,000
SF FY 2007 renovation project unfunded. With the implementation of the Recovery Act,
TMA received funds to complete the previously unfunded FY 2007 renovation project,
referred to in this report as the Recovery Act hospital alteration project.

Project Support
NAVFAC SE supported TMA by providing contracting and project management
services. These services included awarding contracts for the Recovery Act hospital
alteration project and assigning project managers to oversee the contracted work.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance programs are operating as intended
and to evaluate the effectiveness of the controls. We identified an internal control
weakness in the administration of the Recovery Act project as defined by DoD
Instruction 5010.40. Initially, TMA and NAVFAC SE personnel did not provide
adequate internal controls over the planning and contract execution efforts for the project.
We discuss these issues in detail in the Audit Results section of this report. Because
officials at TMA and NAVFAC SE later corrected all the deficiencies we identified


                                              2

during the course of our review, this report contains no recommendations. We will
provide a copy of the report to the senior officials responsible for internal controls at
TMA and NAVFAC SE.




                                              3

Audit Results
Initially, TMA personnel ensured neither that the square footage needed for the Recovery
Act hospital alteration project was properly planned nor that costs were adequately
supported. Additionally, AE contracting actions by personnel at NAVFAC SE did not
ensure transparency of Recovery Act funding. As a result, TMA lacked reasonable
assurance that Recovery Act funds were used for the purposes intended. However,
during the audit, officials at TMA and NAVFAC SE took action to address and correct
these deficiencies.

TMA personnel distributed planning and design and construction funds to NAVFAC for
the Recovery Act hospital alteration project in a timely manner, and the funding
authorization documents properly identified a Recovery Act designation. Additionally,
contracting personnel at NAVFAC SE included the Federal Acquisition Regulation
(FAR) clauses required by the Recovery Act in the AE design contract. Finally,
contracting personnel at NAVFAC SE announced and reported contracting actions on the
required Web sites and the contractor, Rogers Lovelock & Fritz, Incorporated (RLF),
reported the recipient information required by the Recovery Act.

Planning: Initially, Project Not Adequately Planned or
Supported, But Corrective Action Taken
Initially, TMA personnel did not ensure the entire size of the Recovery Act hospital
alteration project or its costs were properly planned and supported to ensure appropriate
use of Recovery Act funds. DD Form 1391, “Military Construction Project Data,” lacked
cost support, and TMA personnel failed to prepare a valid economic analysis to justify
the total SF requirements and costs. This occurred
because TMA personnel did not update project                    Initially, TMA personnel did
documentation to support the need for an additional             not ensure the entire size of
$7.4 million in costs and the additional 17,752 square          the Recovery Act hospital
feet needed for the project, and did not break out the          alteration project or its costs
Recovery Act project requirements separately from               were properly planned and
those for previously planned MILCON projects.                   supported to ensure
Additionally, NAVFAC SE did not properly address                appropriate use of Recovery
National Environmental Policy Act requirements for              Act funds…Officials at TMA
the Recovery Act hospital alteration project. This              took action to address and
occurred because NAVFAC SE relied on a May 2007                 correct these deficiencies.
categorical exclusion that did not include the Recovery
Act hospital alteration project in its justification. As a result of our review, officials at
TMA and NAVFAC SE took action to address and correct these deficiencies.

DD Forms 1391 Lacked Cost Support and Economic Analysis
Was Incomplete
TMA approved DD Form 1391, March 2009, for alteration of 50,752 SF, with an
estimated cost of $27.2 million of which $21.7 million was attributed to the primary
facility. Based on the submission of DD Form 1391, Congress funded the project with
Recovery Act funding.


                                              4

As support for DD Form 1391, TMA personnel provided an economic analysis,
December 2006, that included requirements for both the original FY 2005 MILCON
project and the FY 2007 MILCON renovation project. The 2006 economic analysis
supported a hospital renovation project of 33,000 SF, with a primary facility cost of
$14.3 million, not 50,752 SF, with a primary facility cost of $21.7 million. Without an
economic analysis to justify the additional 17,752 square feet, or support for the
additional $7.4 million in costs, TMA lacked assurance Recovery Act funds were used
for the purposes intended.

Additionally, Navy Medicine East personnel provided an economic analysis dated
June 25, 2009; however, it did not comply with DoDI 6015.17 or DoDI 7041.3, as it
addressed only four of the seven key elements in determining the most efficient and
effective use of resources. The economic analysis lacked a cost and benefit
determination, comparison and ranking of alternatives, and a sensitivity analysis.
Moreover, the economic analysis lacked health care facility requirements including
workload trends, population characteristics, and consideration of personnel and financial
resources. Finally, the economic analysis was dated after the project received Recovery
Act funding.

NAVFAC SE personnel also used an unapproved and incorrect version of
DD Form 1391, July 6, 2009, in their contracting acquisition plan, and that DD Form
1391 cited renovations of 51,942 SF with an estimated cost of $23.1 million. TMA
approved neither the increase in size (51,942 SF versus 50,752 SF) nor the reduction in
cost ($23.1 million versus $27.2 million). In addition, DD Form 1391, July 6, 2009,
omitted some required elements, including costs for evidence-based design or those for
sustainable design and development. TMA officials stated that this version was not
approved and should not have been used in the planning of the project.

National Environmental Policy Act Study
OPNAVINST 5090.1C, “Environmental Readiness Program Manual,” October 30, 2007,
requires the Navy to comply with the National Environmental Policy Act and to assess
the environmental consequences of proposed actions that could affect the quality of the
environment. NAVFAC SE personnel provided neither a National Environmental Policy
Act study impact statement nor a categorical exclusion to support the Recovery Act
hospital alteration project. NAVFAC SE personnel provided a categorical exclusion,
May 2007, for a three-story hospital addition and renovation of the existing hospital’s
sixth floor. However, the Recovery Act hospital alteration project included renovations
to multiple floors within the existing NH Jacksonville structure which were not included
in the May 2007 categorical exclusion.

Management Corrective Action
As a result of our audit, TMA personnel used current data on patient workload and
medical personnel staffing to revalidate the square footage requirements for the Recovery
Act hospital alteration project. This revalidation effort supported the need for additional
square footage as approved in the Recovery Act DoD MILCON Program Plan.



                                             5

Additionally, during our site visit, personnel at NAVFAC SE took corrective action to
prepare a categorical exclusion specifically for the Recovery Act hospital alteration
project.

Although program costs were not updated, according to FAR 15.305-1, “Proposal
Evaluation,” competition normally establishes price reasonableness, and when contracts
are awarded on a firm-fixed-price basis, the proposed price usually satisfies the
requirement to perform a price analysis. Under the contract, the construction solicitation
for the Recovery Act hospital alteration project was subject to full and open competition,
and personnel at NAVFAC SE received eight firm-fixed-price proposals. Because
multiple proposals were submitted and competition can establish price reasonableness,
we believe the risk associated with the lack of supporting documentation for the cost
estimate was mitigated and should not impede project implementation.

Funding: TRICARE Management Activity Properly
Distributed Recovery Act Funds
TMA personnel distributed planning and design
funds to NAVFAC for the Recovery Act hospital       TMA personnel distributed
alteration project in a timely manner, and the      planning and design funds to
funding authorization documents properly            NAVFAC for the Recovery
identified a Recovery Act designation. In April     Act hospital alteration project
2009, TMA personnel transferred $1.09 million of    in a timely manner, and the
the $118.6 million from Project 74688, “Planning    funding authorization
and Design” and $27.2 million from Project 65199    documents properly identified
to NAVFAC personnel for AE design services and      a Recovery Act designation.
construction, respectively. All funding documents
properly cited Treasury Appropriation Fund
Symbol 97 0501, “Military Construction-Recovery Act, Defense-Wide” appropriation.

Contracting personnel at NAVFAC SE awarded task order JM06 in April 2009 on
contract N62470-06-D-6011 and subsequent modifications, and obligated $614,151 and
an additional $41,562 (in-house administrative costs) in planning and design funds to the
project, leaving approximately $434,287 ($1.09 million minus $655,713) in potential bid
savings. In December 2009, contracting personnel awarded the construction contract
N69450-10-C-1258 and subsequent modifications for $8.22 million, resulting in
approximately $19 million ($27.2 million minus $8.2 million) in additional bid savings.
Personnel at NAVFAC HQ are in the process of transferring unused planning and design
funds back to TMA.

Because TMA personnel also allocated part of the $118.6 million from Project 74688
“Planning and Design” to support hospital replacement projects at Fort Hood, Texas, and
Camp Pendleton, California, officials at TMA plan to reevaluate the unused funds when
the other two MILCON projects are awarded. TMA officials stated that they plan to
work with personnel from the Office of the Secretary of Defense (Comptroller) to
reallocate unused MILCON funds to other Recovery Act projects. We will continue to



                                            6

monitor the use of the planning and design funds and construction funds as our review of
the Fort Hood and Camp Pendleton hospital Recovery Act projects progresses.

Project Execution: Transparency of Recovery Act
Funding Initially Inadequate, But Corrective Action
Taken
Although NAVFAC SE personnel solicited and awarded a task order from a
competitively awarded contract to an approved contractor, and included all FAR clauses
applicable to the Recovery Act in the task order, AE contract actions did not ensure
transparency of Recovery Act funding. This occurred because personnel at NAVFAC SE
did not clearly define requirements attributable to the hospital alteration project funded
by the Recovery Act and separate the requirements from those for non-Recovery Act
projects. As a result, TMA lacked reasonable assurance that Recovery Act funds were
used for intended purposes. As a result of our review, officials at NAVFAC SE took
corrective action.

Existing AE Contract Originally Competed and Announced, FAR
Clauses for Recovery Act Included
Contracting personnel at NAVFAC SE awarded the AE design contract on task order
JM06 at a firm-fixed-price from contract N62470-06-D-6011 to RLF on April 22, 2009.
The original contract, competed in 2006 by NAVFAC Atlantic, was an existing AE
Indefinite Quantity Contract for medical projects. Because RLF had already designed the
FY 2005 MILCON project and a portion of the FY 2007 renovation project (now the
Recovery Act hospital alteration project), NAVFAC SE awarded design work for the
latter project to the same contractor. RLF was properly registered in the Central
Contractor Registration and was not listed in the Excluded Parties List System. Initially,
contracting personnel at NAVFAC SE included all of the FAR clauses required by the
Recovery Act except FAR 52.215-2, “Audit and Records Negotiation (Mar 2009).”
NAVFAC SE modified the task order on June 28, 2009, to include the missing Recovery
Act clause.

OMB Memorandum M-09-15, “Updated Implementing Guidance for the American
Recovery and Reinvestment Act of 2009,” April 3, 2009, describes requirements for
reporting Recovery Act-funded actions in the Federal Procurement Data System and
publicizing actions on the Federal Business Opportunities (FBO) Web site. Contracting
personnel properly announced the solicitation and award on www.fbo.gov and reported
the contract award in the Federal Procurement Data System.

Unclear and Conflicting Statements of Work in Same Task Order
Task order JM06 for AE design services of the Recovery Act project referenced a
Statement of Work (SOW) that was unclear and included requirements for both the
Recovery Act hospital alteration project and the FY 2005 MILCON addition project. The
task order referenced a 2006 SOW, which limited the project to 33,000 square feet. The
task order also attached a revised version of the September 30, 2002, SOW which
reverted back to the full scope of a combined FY 2005 MILCON addition/alteration and


                                            7

provided a break out for 43,703 square feet of alterations, when the Recovery Act
hospital alteration project required 50,752 square feet.

Mixing Recovery Act Funds and Non-Recovery Act Funds on
Task Order Modification
On August 13, 2009, NAVFAC SE personnel issued a contract modification to task order
JM06 that obligated $212,144.41 of FY 2009 Recovery Act funding and $50,962.97 of
FY 2007 MILCON funding on the same task order. The modification did not reference
the original 2006 SOW cited in the award of task order JM06, but included revisions to
the requirements generated from a 2002 SOW and a 2009 SOW. The revised 2002 SOW
included provisions for moving the otolaryngology department to the fifth floor and
making minor improvements to the old surgical suites. The 2009 SOW included
requirements for topographical and geotechnical surveys supporting an outpatient drop-
off canopy and parking lot repairs originally planned for the FY 2005 MILCON addition.
As a result of combining the Recovery Act hospital alteration project and the non-
Recovery Act project on the same task order, NAVFAC SE personnel could not identify
or allocate the correct funds for AE services delivered, and used Recovery Act funding to
pay for $49,241.77 in services related to the FY 2005 MILCON addition not funded by
the Recovery Act.

Potential Duplicate Design Services
Contracting personnel at NAVFAC-SE contracted for some of the same AE design
services in support of the Recovery Act hospital alteration project (task order JM06 of
contract N62470-06-D-6011) that were previously awarded for the FY 2007 renovation
project on contract N62467-01-D-0328. On May 18, 2007, NAVFAC South awarded
task order D0004 of contract N62467-01-D-0328 to obligate $402,010 from FY 2006 and
FY 2007 MILCON funding for 100 percent design of the FY 2007 renovation project,
which later became the Recovery Act hospital alteration project. NAVFAC SE personnel
stated that NAVFAC South issued a verbal stop work order to RLF to suspend design
work on the FY 2007 renovation project; however, the contract files contained no
documentation to support the stop work order.

On April 22, 2009, NAVFAC SE awarded task order JM06 of contract
N62470-06-D-6011 to obligate $402,010 for 100 percent design of the Recovery Act
hospital alteration project. The contractor submitted $32,160.80 worth of invoices for
design services 12 days after the contract award; however, NAVFAC SE never paid the
invoices, and the contractor resubmitted the invoices for payment 4 months later. On
June 15, 2009, NAVFAC SE awarded task order D0004 to modify and de-obligate the
$402,000 from the May 2007 award. Contract modification language stated that “the
funds were never billed against and were moved to contract N62470-06-D-6011-JM06.”
We believe that NAVFAC SE personnel may have used Recovery Act funds to pay for
AE design services provided prior to the Recovery Act hospital alteration project.

Officials at NAVFAC SE maintained that no Recovery Act funding was used to pay for
AE design services performed prior to the Recovery Act hospital alteration project and
that the Government did not direct the contractor to proceed with design before it issued


                                            8

the task order. NAVFAC SE further stated that the AE design was required to be
completed within 91 days of award of the task order, which they considered a fast
turnaround time. NAVFAC SE calculated that 16 days into the contract, the project
should be 17.6 percent complete, and that the contract was worth an AE rate of $4,471.58
per day. Based on the calculation, 16 days into the contract, RLF would have performed
$70,681.32 worth of design services. Furthermore, NAVFAC SE personnel stated the
invoice RLF submitted for $32,160.80 (but not paid by the Government) was much less
than the $70,681.32 2. Contracting personnel at NAVFAC SE stated the billing reflects a
reasonable level of effort, given the aggressive design timelines. Finally, they stated if
RLF completed any design work prior to receipt of the task order, the contractor did so at
its own risk, presumably because it anticipated an aggressive schedule due to the urgency
of the Recovery Act program. We considered NAVFAC SE’s explanation reasonable
and therefore make no recommendations on this issue.

Inappropriate Use of Planning and Design Funds
Finally, NAVFAC SE personnel used Recovery Act MILCON funds from the planning
and design project instead of those for the construction project to award Post-construction
Award Services (PCAS). When NAVFAC SE personnel awarded task order JM06, they
used funds allocated to the planning and design project to obligate $65,914 for
consultation (PCAS); $64,337 for submittal review (PCAS); and $24,520 for record
drawings (PCAS).

Management Corrective Actions
As a result of our audit, NAVFAC SE rewrote the SOW and modified task order JM06
for the Recovery Act hospital alteration project to clearly define only Recovery Act
requirements. NAVFAC SE and RLF bilaterally agreed to the modification. NAVFAC
SE personnel also modified task order JM06 to de-obligate any requirements attributable
to the FY 2005 MILCON addition and the FY 2007 MILCON funding associated with
those requirements, and issued those requirements on a new, non-Recovery Act-funded
task order. Additionally, NAVFAC SE officials issued guidance to identify and
appropriately allocate lines of accounting when certifying and paying contractor invoices.
NAVFAC SE personnel also corrected the improper payments. Finally, NAVFAC SE
personnel modified the task order to obligate construction funds instead of planning and
design funds.

Tracking and Reporting: Recipient Reported
Information Required by the Recovery Act
The contractor, RLF, reported the recipient information required by the Recovery Act.
RLF reported the number of jobs, provided a brief summary of the delivery order, and
reported the contract value for the AE design contract to www.recovery.gov.



2
  NAVFAC SE provided a response to support a 16 day invoice period rather than a 12 day period. Based
on NAVFAC SE’s daily AE rate of $4,471.58, 12 days into the contract equates to 13.2% of contract
completion and $53,010.96 in AE services rendered. The value of services rendered for the 12 day
invoicing period is still greater than what the contractor originally submitted.


                                                  9

Conclusion
Initially, TMA personnel ensured neither that the amount of space needed for the
Recovery Act hospital alteration project was properly planned nor that costs were
adequately supported; and contracting personnel at NAVFAC SE did not ensure
transparency of Recovery Act funding in AE contracting actions. However, during our
review, officials at TMA and NAVFAC SE took corrective action to address the issues
we identified during our audit. As a result, DoD has reasonable assurance Recovery Act
funds were used for the purposes intended.

Additionally, TMA personnel distributed planning and design and construction funds to
NAVFAC for the Recovery Act hospital alteration project in a timely manner, and the
funding authorization documents properly identified a Recovery Act designation.
Additionally, contracting personnel at NAVFAC SE included the Federal Acquisition
Regulation (FAR) clauses required by the Recovery Act in the AE design contract. Also,
the contractor, RLF, reported the recipient information required by the Recovery Act. As
a result of corrective action taken by management, this report makes no
recommendations. We will continue to monitor actions taken by TMA as they reprogram
the bid savings realized on hospital MILCON projects.




                                          10

Appendix. Scope and Methodology
We conducted this audit from June 2009 through October 2010 in accordance with
generally accepted government auditing standards. Generally accepted government
auditing standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

This report addresses: MILCON Project 65199, “Hospital Alteration,” $27.2 million, and
MILCON Project 74688, “Planning and Design,” $118.6 million, of which TMA
personnel allocated $1.09 million to the Recovery Act hospital alteration project.

To review DoD’s implementation of plans for the Recovery Act, we audited the planning,
funding, initial project execution, and tracking and reporting of the AE portion of the
Recovery Act hospital alteration project to ensure personnel at TMA and NAVFAC SE
complied with Recovery Act and subsequent related guidance. Specifically, we
determined whether:

   •	 the selected projects were adequately planned to ensure the appropriate use of
      Recovery Act funds (Planning);
   •	 funds were awarded and distributed in a prompt, fair, and reasonable manner
      (Funding);
   •	 contracts awarded were transparent, competed, and contained required Recovery
      Act Federal Acquisition Regulation clauses (Project Execution); and
   •	 recipients’ use of funds was transparent to the public and the benefits of the funds
      were clearly, accurately, and timely reported (Reporting).

Due to the timing of our review and the delay in the construction contract award, we did
not review—and will not report on—either the project execution and contracting actions
or the tracking and reporting for the construction portion of the Recovery Act hospital
alteration project in this report.

We conducted interviews and collected, reviewed, and analyzed documents from
NAVFAC personnel (project manager, contract specialist, operations, and acquisition
officers), as well as TMA and Navy Medicine East personnel. We reviewed
requirements, justifications, and cost documentation supporting the DD Forms 1391
“Military Construction Project Data,” funding and accounting documents, acquisition
plans, solicitations, and contract documentation to include architectural and engineering
design contracts N62467-01-D-0328 and N62470-06-D-6011.

Although, design contract N62467-01-D-0328 was outside the scope of our Recovery Act
work, we reviewed it to determine whether design services were already under contract
for the Recovery Act hospital alteration project. Finally, we reviewed Federal, DoD,
TMA, and Navy guidance and compared this guidance to our audit results.



                                            11

Use of Computer-Processed Data
We relied on computer-processed data from the FBO Web site, the FPDS—Next
Generation, E-projects, Facilities Information System, and the Navy Electronic
Commerce On-line. FBO is a single, government-wide point-of-entry for Federal
Government procurement opportunities. FPDS—Next generation is a dynamic, real-time
database where contracting officers can update data to include new actions,
modifications, and corrections. E-projects is a system which Web-enables all projects
and tasks for businesses, automating many manual processes and promoting efficient
sharing of knowledge. Facilities Information System is an online interactive database
management system, which supports NAVFAC’s Facilities Acquisition and Facilities
Management processes. Navy Electronic Commerce On-line is the Navy’s Web-based
system for electronic exchange of solicitations, offers, and awards. We compared data
generated by each system with the DoD expenditure plans, funding authorization
documents, and contracting documentation to support the audit conclusions. We
determined that the data were sufficiently reliable for our audit purposes.
Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division (QMAD) of the DoD Office of Inspector General analyzed all DoD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. QMAD personnel selected most
audit projects and locations using a modified Delphi technique, which allowed QMAD to
quantify the risk based on expert auditor judgment and other quantitatively developed
risk indicators. They used information collected from all projects to update and improve
the risk assessment model. QMAD personnel initially selected 83 projects with the
highest risk rankings with auditors choosing some additional projects at the selected
locations.

QMAD personnel did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage of Recovery Act
dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, State National Guard units, and public works
projects managed by U.S. Army Corps of Engineers.
Prior Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                           12

